April 21, 2011

ROBERT A. CAVINDER
DISTRICT MANAGER, APPALACHIAN DISTRICT

SUBJECT: Audit Report – Beckley, WV Post Office Facility Consolidation
         (Report Number EN-AR-11-005)

This report presents the results of our audit of the Beckley, WV Post Office™ (PO)
proposed consolidation of mail processing operations into the Charleston, WV
Processing and Distribution Center (P&DC) (Project Number 11XG003EN000). The
report responds to a congressional request. Our audit objectives were to assess the
business case and operational impacts of the proposed consolidation. This audit
addresses financial and operational risks. See Appendix A for additional information
about this audit.

                          Illustration 1: The Beckley, WV PO




                    Source: U.S. Postal Service Office of Inspector General


As the economy weakened in 2010, mail volume and revenue continued to decline. The
U.S. Postal Service attempted to address these challenges with focused cost reductions
and increased efficiency. One initiative to reduce costs is area mail processing (AMP)
consolidations, which consolidate mail volume from two (or more) Postal Service
processing facilities into one to improve operational efficiency and/or service.
Beckley, WV Post Office                                                       EN-AR-11-005
 Facility Consolidation



Conclusion

A valid business case exists to consolidate mail processing operations from the Beckley
PO into the Charleston P&DC. The consolidation should increase operational efficiency
and reduce processing costs in support of the Postal Service’s streamlining efforts.
Based on our analysis:

   Service performance should improve. However, there is potential for some
   temporary service degradations during implementation.
   No career employee should lose his or her job, although some might be reassigned.
   Capacity exists at the Charleston P&DC to process mail from the Beckley PO.
   Transportation route changes should ensure the mail meets operational clearance
   times at the Charleston P&DC.
   Projected annual maintenance cost savings were overstated by $228,181 due to
   calculation errors. During our review, management corrected the proposed
   maintenance savings in the AMP worksheets to reflect the correct savings of
   $189,555.
   Contingency plans are in place at the facilities to ensure that the collection and
   delivery of mail continue if weather or other events disrupt service.
   The consolidation will not impact bulk mail discounts.
   A local postmark will remain available.

As a result of this consolidation, the Postal Service could save approximately
$1.1 million annually. See Appendix B for our detailed analysis of this topic and
Appendix C for our other impact calculations.

Because our findings support the consolidation and management took corrective action
during the review to address the issues identified, we are not making any
recommendations. Management agreed with the findings. See Appendix D for
management’s comments in their entirety.




                                            2
Beckley, WV Post Office                                                      EN-AR-11-005
 Facility Consolidation


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at 703-248-2100.




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    David E. Williams
    John L. Prokity
    Damon M. Manz
    Corporate Audit and Response Management




                                            3
Beckley, WV Post Office                                                                                 EN-AR-11-005
 Facility Consolidation



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history and
incurred a net loss of $8.5 billion1 in fiscal year (FY) 2010. A significant portion of this
loss is attributed to the continual decline in First-Class Mail® (FCM). The Postal Service
experienced a 20-percent loss of mail volume over the past 4 years, resulting in a
decline of more than 6 billion pieces during 2010. Although the Postal Service has
reduced expenses by $11 billion over the past 3 years, it has not made sufficient
reductions to fully offset the decline in mail volume and related revenue.

In testimony before Congress in June 2010,2 the U.S. Government Accountability Office
(GAO) found that deteriorating financial conditions and declining mail volume have
reinforced the Postal Service’s need to increase operational efficiency and reduce
expenses in its mail processing network. One of the initiatives listed according to GAO,
states that AMP proposals are intended to reduce costs and increase efficiency by
making better use of excess capacity or underused resources, primarily at Postal
Service P&DCs. The Postal Service AMPs may involve the consolidation of originating
operations (canceling and sorting locally generated mail), destinating operations (sorting
and preparing mail received from more distant areas for local delivery), or both.

Title 39 U.S.C., § 101, Part 1, Chapter 1, states that the Postal Service “. . . .shall
provide prompt, reliable, and efficient services to patrons in all areas. . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states, “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated
December 20, 2006, highlights “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

This report responds to a request from Congressman Nick Rahall of West Virginia’s 3rd
Congressional District (see Map 1) to examine the consolidation of mail processing
operations from the Beckley PO into the Charleston P&DC. Congressional concerns
included the following:

    Quality of service performance.
    Possible loss of jobs and staffing relocations.
    Efficiency of mail operations.
    Transportation routes and costs.
    Impact on security and contingency plans for the mail.


1
 Of this amount, $5.5 billion was due to an annual legislative mandated obligation to prefund retiree health benefits.
2
 Testimony to the Congressional Committees: Mail Processing Network Initiatives Progressing and Guidance for
Consolidating Area Mail Processing Operations Being Followed, (GAO-10-731, dated June 2010).


                                                           4
Beckley, WV Post Office                                                    EN-AR-11-005
 Facility Consolidation


   Impacts to bulk mail discounts, the local postmark, and the electrical system at the
   Charleston P&DC.

Since September 2009, Postal Service management has initiated five feasibility studies
involving mail processing facilities in West Virginia. One study was approved and
implemented, two studies have been approved pending implementation, and two remain
pending. As a result, additional congressional concerns to the Postal Service surfaced
regarding the number of consolidations in process or planned in West Viriginia.




                                          5
Beckley, WV Post Office                                                                                 EN-AR-11-005
 Facility Consolidation


                            Map 1: West Virginia’s 3rd Congressional District




The Beckley AMP feasibility study included originating3 and destinating4 mail processing
operations and was based on operational data from April 1, 2009, through March 31,
2010. The feasibility study was approved on November 23, 2010, and consolidation was
scheduled to be implemented by March 31, 2011.

The Beckley, WV and Charleston, WV mail processing facilities are approximately
65.1 miles apart in the Appalachian District of the Postal Service’s Eastern Area. Map 2
shows the locations of the two facilities.




3
  Originating operations are those associated with the acceptance and initial processing of mail that, for example, is
either tendered at Postal Service retail windows or bulk entry units, or is deposited in collection boxes. Originating
processing marks the beginning stages of its journey in the mailstream.
4
  Destinating operations are those associated with the final processing of mail that, for example, is either drop-
shipped at various facilities or received from the network. Destinating processing marks the end stages of its journey
in the mailstream.


                                                           6
Beckley, WV Post Office                                                      EN-AR-11-005
 Facility Consolidation


                     Map 2: Beckley PO (1) and Charleston P&DC (2)




OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to assess the business case and operational impacts
of the proposed consolidation. In response to the congressional request, we evaluated
the workforce and operational impacts, service implications, efficiency gains, and
savings projections of the Beckley PO into the Charleston P&DC consolidation
proposal.

We reviewed current and historical data for the Beckley and Charleston facilities,
including data from the period covered by the AMP feasibility study worksheets. We
conducted on-site observations during the week of November 15, 2010, interviewed
Postal Service officials and employees; and reviewed applicable Postal Service
guidelines. We used the AMP proposal, dated November 15, 2010, as the basis for our
review. We generated reports and prepared analyses using Postal Service databases to
confirm information related to capacity, workhours, staffing, transportation, and service
standards regarding the proposed consolidation. These databases included the
following:

   Activity Based Costing.
   Enterprise Data Warehouse (EDW).
   Service Standard Directory.
   Transit Time Measurement System.
   Transportation Contract Support System.



                                            7
Beckley, WV Post Office                                                            EN-AR-11-005
 Facility Consolidation


   Web Complement Information System.

We conducted this performance audit from October 2010 through April 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on April 15, 2011, and included their
comments where appropriate.

We assessed the reliability of workhour, staffing, transportation, and service data by
comparing our results with that reported in the AMP feasibility study and through
discussions with Postal Service managers. We determined that the data were
sufficiently reliable for the purposes of this report.

PRIOR AUDIT COVERAGE

                                                                              Final Report
                          Report Title                        Report Number
                                                                                  Date
    Canton Processing and Distribution Facility Outgoing
                                                              NO-AR-09-011     9/22/2009
    Mail Processing Operation Consolidation
    New Castle Processing and Distribution Facility
    Outgoing Mail Processing Operation Consolidation          NO-AR-10-002      2/1/2010

    Manasota Processing and Distribution Center
                                                              EN-AR-10-003     2/12/2010
    Consolidation
    Lakeland Processing and Distribution Center
    Consolidation                                             EN-AR-10-004     2/12/2010

    Southeast Area Processing and Distribution Center
    Consolidations                                            EN-AR-10-006     9/17/2010

    Dallas Processing and Distribution Center Outgoing Mail
                                                              NO-AR-10-003     2/24/2010
    Consolidation
    Consolidation of the Lima P&DF Mail Operations Into
                                                              NO-AR-10-007      7/2/2010
    the Toledo P&DC
    Charlottesville Processing and Distribution Facility
                                                              NO-AR-10-008      8/3/2010
    Consolidation
    Review of Wilkes-Barre, PA Processing and Distribution
    Facility Consolidation                                    NO-AR-11-001     10/4/2010

    Houston, TX Processing and Distribution Center Mail                         12/14/10
    Consolidation                                             NO-AR-11-004




                                                      8
Beckley, WV Post Office                                                                              EN-AR-11-005
 Facility Consolidation


                                APPENDIX B: DETAILED ANALYSIS

Business Case

A valid business case exists to consolidate mail processing operations from the Beckley
PO into the Charleston P&DC to achieve projected cost savings. Projected savings
appear realistic and attainable based on our analyses of available data. The
Appalachian District projects to save about $1.1 million annually through increased
productivity gains from moving mail processing operations, transportation route
changes, a reduction of nine craft positions, and a net increase of two management
positions. The majority of the savings will come from approximately $800,000 in
reduced labor costs. The Postal Service will assess actual savings from the
consolidation as part of the post-implementation review process.

We also examined why multiple consolidations were being considered in West Virginia.
Many of the Postal Service’s mail processing facilities are part of a legacy network that
reflect decisions made over decades to address a robust and growing mail volume.
Today the network is larger than necessary to handle declining mail volume. The Postal
Service takes a holistic approach in examining opportunities for potential mail
processing consolidations, which considers cost savings while balancing impacts to
service. We determined that West Virginia has a higher number of mail processing
facilities than other states based on population and square miles supported.5

Service

The consolidation should have little overall impact on customer service. There is,
however, a potential for some temporary degradation of service during the
implementation process. The Beckley PO and Huntington Processing and Distribution
Facility consolidations are being implemented concurrently into the Charleston P&DC.
There is an increased risk for mail delays and service interruptions when multiple
facilities are consolidated into the same gaining facility concurrently. However, an
implementation team of functional area specialists onsite during the consolidation and
the relatively small amount of mail transferred should mitigate this risk. In a prior OIG
audit,6 we made a recommendation to use an implementation team to mitigate potential
service impacts; therefore, we are not making a recommendation in this report.

We reviewed two measures of customer service; the External First-Class Measurement
system (EXFC),7 and the projected service standard changes. Because of the small


5
  Nine processing facilities are in West Virginia. Each facility covers an average of 2,675 square miles, with an
average population of 205,888. Nationally, processing facilities cover an average of 7,642 square miles, with an
average population for all states of 566,049.
6
  Lima, OH to Toledo, OH Area Mail Processing Consolidation (Report Number EN-AR-11-004, dated March 31,
2011).
7
  An independent measurement of service performance for FCM (letters, flats, and postcards) deposited in collection
boxes and business mail chutes. It provides national, area, performance cluster, and city estimates, which are
compared to service goals.


                                                         9
Beckley, WV Post Office                                                    EN-AR-11-005
 Facility Consolidation


size and limited mail processing operations at the Beckley PO, 24-hour clock
performance indicators used to measure operational performance were not available.

   EXFC Scores

During the period April 1, 2009, through March 31, 2010, the Charleston P&DC had
slightly higher EXFC overnight, 2-day, and 3-day service scores than the Beckley PO
(see Charts 1, 2, and 3).


     Chart 1: Charleston P&DC vs. Beckley PO Overnight EXFC Service Scores
                       April 1, 2009, through March 31, 2010




       Chart 2: Charleston P&DC vs. Beckley PO 2-Day EXFC Service Scores
                       April 1, 2009, through March 31, 2010




                                          10
Beckley, WV Post Office                                                                               EN-AR-11-005
 Facility Consolidation


        Chart 3: Charleston P&DC vs. Beckley PO 3-Day EXFC Service Scores
                        April 1, 2009, through March 31, 2010




    Service Standards

We determined that the overall impact on service standards8 for all mail classes will be
a net upgrade. There will be 2,494 upgrades and 52 downgrades to service standards.
See Table 1 for a summary of service standard changes.

                                 Table 1: Service Standard Changes


                     Mail Class           Upgrades         Downgrades           Net Change
                  First-Class™                 18                 10                   8
                  Priority Mail®               18                 10                   8
                  Periodicals                 588                 16                  572
                  Standard Mail®             1,850                 8                 1,842
                  Package                      20                  8                   12
                  Services
                  All Classes                2,494                52                 2,442


Employees

Consolidation of the Beckley PO’s mail into the Charleston P&DC will impact staffing,
although no career employee should lose his or her job. Some employees may,
however, be reassigned.9

Staff reductions appear reasonable based on proposed AMP projections. The transfer
of mail processing operations from the Beckley PO to the Charleston P&DC may impact
8
  Service standards are defined as "A stated goal for service achievement for each mail class." Service standards
represent the level of service the Postal Service strives to provide to customers and are considered one of the
primary operational goals against which service performance is measured. An upgrade or downgrade means that
service between two ZIP Codes is either faster or slower than it was before a change.
9
  Reassignments will be in accordance with labor/management agreements.


                                                         11
Beckley, WV Post Office                                                                            EN-AR-11-005
 Facility Consolidation


24 craft employees at the Beckley PO. These impacts will result in a combined net
reduction of nine craft positions. However, these employees will have opportunities to fill
other vacancies in the Appalachian District.10 Attrition and retirement could reduce the
number of employees that would have to be accommodated.

Capacity and Efficiency

Adequate capacity exists to process additional originating and destinating mail volume
at the Charleston P&DC. The Beckley PO will transfer an average daily volume of
approximately 15,000 pieces of mail, which represents a very small amount of mail. We
determined that existing capacity at the Charleston P&DC along with the two additional
delivery barcode sorter (DBCS) machines from the Beckley PO should provide sufficient
capacity to process the combined mail volumes at the Charleston P&DC.

The proposed consolidation at the Charleston P&DC will require an upgrade to the
electrical power system to handle the additional two DBCS machines. The
improvements will include wiring to the additional mail processing equipment and
upgrades to a transformer and electrical panel. The AMP proposal includes an estimate
of $25,810 to upgrade the electrical system.

Efficiency should continue to improve at the Charleston P&DC as a result of the
consolidation. Breakthrough Productivity Initiative (BPI) 11 scores show the performance
of plants compared to established performance expectations, with higher scores
representing better performance. Productivity at the Charleston P&DC is projected to
increase by approximately 7 percent as a result of the consolidation. Table 3 shows an
improvement in productivity at the Charleston P&DC since FY 2008.

                                             Table 3: BPI Scorecard

                   Facility                     FY 08        FY 09        FY 10       FY 11
               Charleston P&DC                  54.6%        56.2%        57.8%       59.9%
        Source: EDW.


Transportation

An increase in transportation costs of $59,337 associated with travel between the
Beckley PO and Charleston plant should ensure the mail meets operational clearance
times at the Charleston P&DC. The projected increase in costs is due to transportation
route changes associated with the Beckley PO and Charleston P&DC.




10
  Some employees may be entitled to relocation benefits.
11
  BPI is a comprehensive and integrated method for comparing and improving productivity in mail processing
operations.


                                                       12
Beckley, WV Post Office                                                      EN-AR-11-005
 Facility Consolidation


Maintenance

Projected maintenance savings were overstated by a total of $228,181. The savings
were overstated, because management did not estimate workhours needed to operate
and maintain the mail processing equipment coming from the Beckley PO. During
fieldwork, management corrected the maintenance costs to reflect workhours
associated with mail processing equipment, building equipment, and maintenance
training at the Charleston P&DC.

Workhours

Approximately $800,000 of the $1.1 million in projected cost savings will result from
workhour reductions. This represents an increase in productivity associated with this
consolidation. The workhour savings appear reasonable given continuing declines in
mail volume.

Other Concerns

According to Handbook PO-408, each PO is required to make a local postmark
available. The Beckley PO can provide a local postmark on stamped mail at a retail
counter.

Continuity of operation plans at the Charleston P&DC address security concerns to
protect employees, the mail, facilities, and the mail processing process.

Operations at the Business Mail Entry Unit and retail operations will remain at the
Beckley PO. We did not identify any additional customer service-related issues that
would be impacted by the consolidation.

Potential Risks

We determined that identifying key risks can provide support to management when
making decisions and taking actions.




                                           13
Beckley, WV Post Office                                                          EN-AR-11-005
 Facility Consolidation


                                         Key Risks

       Risk
                          Risk Factor    Probability   Impact             Risk
     Category
                                                              Changes to network
                                                              encounter resistance
                          Stakeholder
     Strategic                              High        High  and can
                           Relations
                                                              delay/terminate
                                                              consolidations.
                                                              Duplication of craft
                                                              positions and
                                                              workhours at losing
                                                              and gaining facilities
     Financial            Labor Costs       High        High  may increase costs
                                                              temporarily. There is
                                                              also a lack of flexibility
                                                              in adjusting workhours
                                                              to workload.
                                                              Ability to build and
                                                              maintain a
                                                              comprehensive
                       Emergency
                                                              security plan to
    Operational       Preparedness/         Low         High
                                                              effectively protect
                      Security Plan
                                                              facilities and assets,
                                                              people, and the
                                                              process.
                                                              Use of an onsite
                                                              implementation and
                                                              integration team to
    Operational             Service       Medium       Medium
                                                              assist in planning and
                                                              monitoring workload
                                                              during execution.
                                                              Efficient and cost-
                              Real
                                                              effective use and
    Operational           Estate/Space    Medium       Medium
                                                              disposition of excess
                          Management
                                                              space.




                                              14
Beckley, WV Post Office                                                    EN-AR-11-005
 Facility Consolidation



                          APPENDIX C: OTHER IMPACTS


              Finding                 Impact Category                Amount
         Maintenance Costs        Predicted Savings Shortfall        $228,181

We identified a predicted savings shortfall of $228,181 in maintenance cost savings.
While we were onsite at the Charleston P&DC, management adjusted the AMP
worksheets to increase workhours for mail processing equipment, building equipment,
and training and correct the projected maintenance savings.




                                          15
Beckley, WV Post Office                                       EN-AR-11-005
 Facility Consolidation



                          APPENDIX D: MANAGEMENT’S COMMENTS




                                         16
